         TRIBAL AND OTHER TRUST FUNDS AND
       INDIVIDUAL INDIAN MONIES TRUST FUNDS
  MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS




               ANNUAL REPORT 2010
                    TRIBAL AND OTHER TRUST FUNDS AND
                  INDIVIDUAL INDIAN MONIES TRUST FUNDS
            MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
           OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS



                                      Table of Contents

                                                                                    Tab

Letter from the Special Trustee                                                      1

Tribal and Other Trust Funds Financial Statements                                    2

Individual Indian Monies Trust Funds Financial Statements                            3

Tribal and Other Trust Funds Independent Auditors’ Report on
    Internal Control Over Financial Reporting and on Compliance and Other Matters    4

Individual Indian Monies Trust Funds Independent Auditors’ Report on
    Internal Control Over Financial Reporting and on Compliance and Other Matters    5
Letter from the Special Trustee

I am pleased to present Fiscal Year 2010 Tribal and         to reduce the number of fractionated ownership interests in
Other Trust Funds and Individual Indian Monies Trust        land.
Funds audited financial statements for the funds that
are managed by the Office of the Special Trustee for        The following are a few of OST’s FY2010
American Indians (OST). This letter provides                accomplishments that improved services to trust
information about our office’s accomplishments in           beneficiaries:
fulfillment of the Department of the Interior’s fiduciary
trust responsibilities.                                       	   Processed a total of $543.7 million through the 

                                                                   centralized commercial lockbox and posted

At OST, our day-to-day work is guided by our Indian                77.10 percent to beneficiaries’ accounts within two
trust management mission statement —                               days of receipt. Converted to a new lockbox
“to perform our fiduciary trust responsibilities to                contract.
American Indian tribes, individual Indians, and Alaska        	   Disbursed more than $814 million to individual 

Natives by incorporating a beneficiary focus and                   Indian and tribal beneficiaries. 

beneficiary participation while providing effective,          	   Recovered addresses on 40 percent of the
competent stewardship and management of trust                      Whereabouts Unknown accounts identified as of
assets.”                                                           October 1, 2009. This represented 33,697 accounts
                                                                   totaling $28 million.
Interior’s Comprehensive Trust Management Plan
                                                                  Distributed funds for 8,061 completed probates 

(CTM) guides and describes the vision, goals and
                                                                   which closed 10,168 estate accounts.

objectives of fiduciary trust management and
operations of the trust for all bureaus and offices               Distributed $1,271,320 Youpee Escheat funds. 

within Interior. Achieving the goals in the plan will         	   Assisted the Federal Indian Minerals Office with 

result in enhanced beneficiary services, reliable                  distribution of oil and gas royalties to trust 

ownership information, and quality administrative                  beneficiaries in the amount of $62,279. 

services; improved management of all trust fund               	   Mailed to beneficiaries who own assets more than
assets; and increased support for Indian self-                     780,000 quarterly performance statements that
governance and self-determination.                                 provide sources of funds, encumbrance information
                                                                   (who is leasing their trust property, duration of the
OST supports its goal to fulfill Indian fiduciary trust            lease and payment terms) and listings of trust
responsibilities by implementing the following                     property owned.
strategies:                                                   	   Provided tribal account statements on CD-ROM to
                                                                   approximately 100 tribes and provided tribes online
Improve Indian Fiduciary Trust Beneficiary                         account access.
Services by continuing to provide timely, accurate            	   Continued to emphasize debit card and direct
account performance statements and convenient                      deposit options in lieu of paper checks, increasing
access to trust account services; communicating with               the total number of account holders who have
beneficiaries and facilitating beneficiary involvement             chosen these options to over 31,500.
in trust management.                                              Handled over 233,000 beneficiary inquiries.
                                                                  Provided 3,747 outreach events to beneficiaries,
Support Indian Self-Governance and Self-
                                                                   which included wills clinics and financial skills
Determination by managing self-
                                                                   training.
governance compacts and self-determination
contracts for OST programs.                                       Conducted 422 investment meetings with tribal
                                                                   representatives.
Improve Indian Trust Ownership and Other                          Maintained Self-Governance and Self-Determination
Information through prompt distribution of financial               funding agreements with 38 tribes for the real estate
trust assets to heirs after the Office of Hearing and              appraisals and individual Indian beneficiary trust
Appeals renders probate decisions and ensure                       functions.
accuracy of data maintained in offices and                        Continued improvement of the Office of Appraisal
accounting systems.                                                Services’ workload management. Reduced the
                                                                   appraisal backlog from 3,600 to 374, which is about
Manage Trust Fund Assets for Timely and                            91 percent. Transmitted 11,852 appraisal products
Productive Use through managing and investing                      to clients throughout FY 2010.
funds held on behalf of individual Indians and                    Moved 9,586 boxes of records to the American
Tribes and receipting, disbursing, and accounting for              Indian Records Repository (AIRR). Indexed 13,249
funds timely and accurately.                                       boxes.
                                                                  Produced and distributed a video about the
Improve Management of Land and Natural                             American Indian Records Repository.
Resource Assets by providing appraisal information
as requested on trust and restricted lands for tribal
and individual Indian owners and exploring solutions
	   Supported the BIA Ft. Berthold Agency by          	   Finalized an administrative procedure to establish a
     researching oil and gas development activities,        student loan repayment program.
     providing lease well production data to track
     producing wells, designing a field monitoring     OST has improved service to trust beneficiaries even as
     process for lease well management,                we face challenges managing this unique trust. In
     developing business rules on surface use          keeping with the CTM, OST will pursue the following
     agreements and producing custom TAAMS oil         priorities during FY 2011:
     and gas reports.
	   Provided technical support for conversion of           1.   E
                                                                 	 mployee Engagement 

     the Royalty Distribution and Reporting System                Implement Telework 

     (RDRS) to the TAAMS oil and gas royalty                      Enhance the Training Program 

     management module, including the
                                                                  Improve Internal Communications 

     implementation of a new simplified Explanation
                                                                  Assess Skill Requirements 

     of Payments.
                                                                 	 Establish a Student Loan Repayment
	   Awarded the Cannon Financial Institute                          Program
     Certified Indian Fiduciary Trust Specialist
     designation to one BIA and twelve OST                  2.   	Money Management
     employees.
                                                                  Implement Pay.gov
	   Provided records management training to 611
                                                                  Partner with the Treasury for Direct
     BIA and OST records contacts and 309 tribal
                                                                     Deposit of Treasury Disbursed Per Capita
     employees.
                                                                     Payments
	   Helped fund and support programs at the
                                                                  Establish and Implement a Short Term
     National Indian Programs Training Center,
                                                                     Investment Fund
     based in Albuquerque, New Mexico.
                                                                 	 Expand Use of Direct Deposit and Debit
	   Provided information to beneficiaries on their                  Cards
     accounts and available services by producing
     and distributing brochures, statement inserts          3.   P
                                                                 	 roject Data
     and promotional items that include OST
                                                                  Reconcile Discrepancy Reports
     contact information.
                                                                  Establish TAAMS Reports Required by
	   Conducted 31 Indian Trust Evaluations (ITE)
                                                                      OST
     and issued 58 final ITE reports.
                                                                  Reconcile Post-conversion Issues of the
	   Performed 47 records assessments and                             TAAMS O&G System
     issued 45 record assessment reports to
                                                                  Resolve Public Domain Property Issues
     identify improvements to OST and BIA
     Records Management Programs.
                                                            4.   	Automation
	   Developed an annual report for Congress, as
     required by the 1994 Act.                                     Enhance Imaging Capabilities
                                                                   Minimize Manual Postings to the Trust
	   The Trust Beneficiary Call Center (TBCC)
                                                                      Funds Accounting System (TFAS)
     used a tracking system to deploy an
     automated, streamlined, paperless (green                      Enhance the Secure Trust Accounting
     initiative) process for one-time disbursements                   Records System (STARS)
     requested by beneficiaries from their IIM                     Pilot BIA Access to the Trust Beneficiary
     accounts. The process is used by TBCC and                        Call Center System
     field staff to disburse an average of $200-                   Implement Electronic Disbursements for
     $300,000 daily to 80 – 100 account holders,                      Tribal Credit Payments
     which has had a positive impact on processing                	 Provide IIM Beneficiaries Online Account
     efficiencies.                                                    Access
	   Researched and corrected, as necessary,
     101,846 beneficiary accounts in TFAS to                5.   G
                                                                 	 eospatial 

     ensure these accounts were correctly                         Funded a Geospatial Pilot Project 

     classified.
	   Drafted an administrative procedure, based on     I hope you find this year’s audited financial statements
     Departmental policy, to launch/implement          informative and useful. We welcome your help,
     telework in 2011.                                 comments or suggestions for continued improvement.
	   Drafted an administrative procedure, based on
     Departmental policy, to launch a wellness
     program. Established a wellness site on OST’s
     intranet.
	   Hired a consultant to produce a new OST                                                    Donna M. Erwin
     workforce plan to assess skill requirements.                               Principal Deputy Special Trustee
                                       AUDIT




 INDEPENDENT AUDITORS’ REPORTS
 ON THE TRIBAL AND OTHER TRUST
 FUNDS AND INDIVIDUAL INDIAN
 MONIES TRUST FUNDS FINANCIAL
 STATEMENTS FOR FY2010 AND
 FY2009




Report No.: X-IN-OST-0005-2010   November 2010
               OFFICE OF
               INSPECTOR GENERAL
               U.S.DEPARTMENT OF THE INTERIOR

                                                                                   NOV 0 9 2010
Memorandum

To:             Principal Deputy Speci I Trustee for American Indians

From:          Mary L. Kendall
               Acting Inspector General

Subject:       Independent Auditors ' Report on the Tribal and Other Trust Funds and Individual
               Indian Monies Trust Funds Financial Statements for FY201 0 and FY2009
               (Report No. X-IN-OST-0005-2010)

Introduction

       This memorandum transmits the KPMG LLP ' s (KPMG) auditors ' reports of the Office of
the Special Trustee for American Indians (OST) financial statements for fiscal years (FY s) 2010
and 2009. The OST financial reports contain financial statements and notes for Tribal and Other
Trust Funds (Tribal) and Individual Indian Monies Trust Funds (IIM).

        The American Indian Trust Fund Management Reform Act of 1994 requires audits of the
Tribal and IIM financial statements. Under a contract issued by OST and monitored by the
Office ofthe Inspector General (OIG), KPMG, an independent public accounting firm,
performed audits of the OST FY2010 and FY2009 fmancial statements. The contract required
that the audits be performed in accordance with auditing standards generally accepted in the
United States of America and the "Government Auditing Standards" issued by the Comptroller
General of the United States.

Results of Independent Audit

        In its audit reports, dated November 8, 2010, KPMG issued qualified opinions on the
Tribal and IIM fmancial statements because KPMG was unable to satisfy themselves as to the
fairness of trust fund balances due to certain parties, for whom OST holds assets in trust
disagreeing with the balances recorded by OST and/or having requested an accounting of their
trust funds with certain of these parties having filed claims and a class action lawsuit against the
United States Government.

Evaluation of KPMG Audit Performance

        To fulfill our monitoring responsibilities, the OIG:

           •   reviewed KPMG' s approach and planning of the audits;
           •   evaluated the qualifications and independence of the auditors;



                                Office of Inspector General   I Washington,   DC
           •   monitored the progress of the audits at key points;
           •   attended periodic meetings with OST management and KPMG to discuss audit
               progress, findings, and recommendations;
           •   reviewed KPMG’s audit reports; and
           •   performed other procedures we deemed necessary.

       KPMG is responsible for the attached auditors’ reports dated November 8, 2010, and the
conclusions expressed. We do not express an opinion on OST financial statements, internal
controls, or compliance with laws and regulations.

Report Distribution

        The legislation, as amended, creating the OIG requires semiannual reporting to Congress
on all audit reports issued, actions taken to implement audit recommendations, and
recommendations that have not been implemented. Therefore, we will include the information in
the attachment in our next semiannual report. The distribution of the report is not restricted, and
copies are available for public inspection.

        The OIG appreciates the courtesies and cooperation extended to KPMG and our staff
during this audit. If you have any questions regarding the report, please contact me at 202–208–
5745.

Attachment




                                                 2
           TRIBAL AND OTHER TRUST FUNDS
 MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                    Financial Statements

                September 30, 2010 and 2009
         (With Independent Auditors’ Report Thereon)
                                KPMG LLP
                                Suite 700
                                Two Park Square
                                6565 Americas Parkway NE
                                PO Box 3990
                                Albuquerque, NM 87190




                         Independent Auditors’ Report on Financial Statements


The Special Trustee for American Indians
U.S. Department of the Interior Office of the Special Trustee
 for American Indians; and

U.S. Department of the Interior Office of Inspector General:

We have audited the accompanying statements of assets and trust fund balances – cash basis of the Tribal
and Other Trust Funds managed by the U.S. Department of the Interior Office of the Special Trustee for
American Indians (OST) as of September 30, 2010 and 2009, and the related statements of changes in trust
fund balances – cash basis for the years then ended. These financial statements are the responsibility of
management of OST. Our responsibility is to express an opinion on these financial statements based on our
audits.

Except as discussed in the fourth paragraph of this report, we conducted our audits in accordance with
auditing standards generally accepted in the United States of America and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audits to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of internal control
over financial reporting of the Tribal and Other Trust Funds managed by OST. Accordingly, we express no
such opinion. An audit also includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements, assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

As described in note 2, these financial statements were prepared on the cash basis of accounting, which is a
comprehensive basis of accounting other than generally accepted accounting principles.

It was not practicable to extend our auditing procedures sufficiently to satisfy ourselves as to the fairness of
trust fund balances in the accompanying financial statements as of September 30, 2010 and 2009 due to the
effects of certain parties for whom OST holds assets in trust disagreeing with balances recorded by OST
and/or having requested an accounting of their trust funds, and of which certain of these parties have filed
claims against the United States Government. Trust fund balances enter into the determination of financial
position and changes in trust fund balances.

In our opinion, except for the effects on the financial statements of such adjustments, if any, as might have
been determined to be necessary had we been able to apply adequate procedures to determine the fairness
of trust fund balances and related changes in trust fund balances, as discussed in the preceding paragraph,
the financial statements referred to in the first paragraph above present fairly, in all material respects, the
financial position of the Tribal and Other Trust Funds managed by OST as of September 30, 2010 and
2009, and the changes in trust fund balances for the years then ended in conformity with the basis of
accounting described in note 2.
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
In accordance with Government Auditing Standards, we have also issued our report dated November 8,
2010 on our consideration of internal control over financial reporting and on our tests of Tribal and Other
Trust Funds’ compliance with certain provisions of laws, regulations and other matters of the Tribal and
Other Trust Funds managed by OST. The purpose of that report is to describe the scope of our testing of
internal control over financial reporting and compliance and the results of that testing, and not to provide
an opinion on the internal control over financial reporting or on compliance. That report is an integral part
of an audit performed in accordance with Government Auditing Standards and should be read in
conjunction with this report in assessing the results of our audits.




November 8, 2010




                                                  2
                             TRIBAL AND OTHER TRUST FUNDS
                   MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                  OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                             Statements of Assets and Trust Fund Balances – Cash Basis
                                            September 30, 2010 and 2009
                                                   (In thousands)


                                   Assets                                        2010           2009
Cash and cash equivalents (note 3)                                        $       526,516        378,630   
Investments (note 4)                                                            2,574,319      2,718,999   
              Total assets                                                $     3,100,835      3,097,629   
                        Trust Fund Balances
Held for Indian tribes (notes 7 and 9)                                    $     2,795,781      2,788,229   
Held by the Department of the Interior and considered to be
  U.S. Government funds (note 7)                                                 305,054        309,400   
              Total trust fund balances                                   $     3,100,835      3,097,629   


See accompanying notes to financial statements.




                                                        3
                             TRIBAL AND OTHER TRUST FUNDS
                   MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                  OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                          Statements of Changes in Trust Fund Balances – Cash Basis
                                   Years ended September 30, 2010 and 2009
                                                     (In thousands)


                                                                              2010           2009
Increases:
   Receipts                                                           $       413,032        437,898   
   Interest received on invested funds                                        118,441        122,091   
   Gain on disposition of investments, net                                        759          5,434   
                                                                              532,232        565,423   
Decreases:
  Disbursements to and on behalf of Indian tribes and other trust
     funds and withdrawal of trust funds by Indian tribes (note 9)           (529,026)      (470,966)  
              Increase in trust fund balances, net                               3,206         94,457   
Trust fund balances, beginning of year                                       3,097,629      3,003,172   
Trust fund balances, end of year (notes 7 and 9)                      $      3,100,835      3,097,629   


See accompanying notes to financial statements.




                                                          4
                              TRIBAL AND OTHER TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2010 and 2009



(1)   Background and Description of the Trust Funds
      (a)   Overview of the Trust Funds
            Establishment and Management of the Trust Funds – The legislation that authorizes the
            Secretary of the United States Department of the Interior (Secretary) to manage the Tribal and Other
            Trust Funds recognizes the unique trust relationship that exists between the Indian tribes, individual
            Indians, and the United States Government (U.S. Government). Agreements between the
            U.S. Government and the various Indian tribes, many of these in the form of treaties, recognize the
            sovereignty of tribes. During the course of the United States’ history and the U.S. Government’s
            evolving policies toward Indian tribes, the trust relationship has retained characteristics based upon
            tribal sovereignty. The United States Congress has designated the Secretary as the trustee delegate
            with responsibility for the financial and nonfinancial resources held in trust on behalf of American
            Indian tribes, individual Indians, and other trust funds. In carrying out the management and oversight
            of the Indian trust assets, the Secretary has a fiduciary responsibility to ensure monies are received
            for the use of Indian lands and the extraction of natural resources from Indian lands, distribute such
            monies collected to the appropriate beneficiaries, ensure that trust accounts are properly maintained
            and invested, and ensure that accurate and complete reports are provided to the trust beneficiaries in
            accordance with applicable law.

            The balances that have accumulated in the Tribal and Other Trust Funds have resulted generally
            from judgment awards, settlement of claims, land use agreements, royalties on natural resource
            depletion, other proceeds derived directly from trust resources, and investment income.

            The accompanying financial statements include only the financial assets held in trust by the Office of
            the Special Trustee for American Indians (OST) for trust beneficiaries and do not include: (i) the
            operating account balances of OST (e.g., Fund Balance with Treasury; Property, Plant, and
            Equipment; etc.) or (ii) other Indian trust assets, including but not limited to, Indian lands, buildings,
            or other nonfinancial assets managed by the United States Department of the Interior
            (the Department).

            The Reform Act – The American Indian Trust Fund Management Reform Act of 1994
            (Public Law 103-412) (the Reform Act) authorized the establishment of OST, which is headed by the
            Special Trustee for American Indians (Special Trustee) who reports to the Secretary. Under this
            legislation, the Special Trustee is responsible for oversight, reform, and coordination of the policies,
            procedures, systems, and practices used by various bureaus and offices of the Department, including
            but not limited to OST, the Bureau of Indian Affairs (BIA) (a component of Indian Affairs (IA)), the
            Office of Natural Resources Revenue (ONRR) (formerly, Minerals Management Service/Minerals
            Revenue Management Program), and the Bureau of Land Management (BLM), in managing Indian
            trust assets.

            Office of the Special Trustee for American Indians – Indian trust assets, including the Tribal and
            Other Trust Funds, are primarily managed under the delegated authority of OST and BIA.
            Management of Indian trust assets on behalf of the trust beneficiaries is dependent upon the
            processing of trust-related transactions within certain information systems of the Department,

                                                         5                                                (Continued)
                        TRIBAL AND OTHER TRUST FUNDS
              MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
             OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                    Notes to Financial Statements
                                    September 30, 2010 and 2009



      including but not limited to OST, BIA, ONRR, and other Departmental bureaus and offices. BIA and
      other Departmental bureaus and offices are responsible for managing the natural resources located
      within the boundaries of Indian reservations and trust lands, as well as the processing of data
      regarding the ownership and leasing of Indian lands. The allocation of receipts and disbursements by
      OST to trust beneficiaries are significantly dependent and reliant upon the receipt of timely and
      accurate information derived from records maintained by BIA, ONRR, and other Departmental
      bureaus and offices (see note 8).

      Regional Offices – OST and BIA maintain staff at regional offices located throughout the United
      States.

      Agency and Field Offices – OST and BIA also maintain staff at agency and field offices located
      throughout the United States, which are generally located near the tribes and individual Indians
      served. OST and BIA personnel located at most of the agency and field offices perform various
      functions related to trust fund activities.

(b)   Description of the Trust Funds
      Certain of the Tribal and Other Trust Funds are subject to legal, regulatory, budgetary, court-ordered,
      or other restrictions (see note 7). A brief description of the Tribal and Other Trust Funds follows:

      •     Tribal Trust Funds – As of September 30, 2010 and 2009, approximately 2,800 and
            2,700 accounts, respectively, comprise the Tribal Trust Funds, which totaled approximately
            $2,795,781,000 and $2,788,229,000, respectively.

            Tribal Trust Funds realize receipts from a variety of sources, including judgment awards,
            settlement of claims, land use agreements, royalties on natural resource depletion, other
            proceeds derived directly from trust resources, and investment income.

      •     Other Trust Funds – Other Trust Funds are comprised of those funds classified as Held by
            the Department of the Interior and considered to be U.S. Government funds (see note 7). Other
            Trust Funds totaled approximately $305,054,000 and $309,400,000 as of September 30, 2010
            and 2009, respectively.

            Other Trust Funds realize receipts from a variety of sources including leases, rights-of-way,
            judgment awards, settlement of Indian claims, donations and bequests, and investment income.

(c)   Investment of Trust Funds
      Authorizing legislation and a substantial body of case law specify how Indian trust funds should be
      managed and which financial instruments constitute appropriate investments for Indian trust funds.
      The Tribal and Other Trust Funds are invested in U.S. Government securities, including
      U.S. Department of the Treasury (U.S. Treasury) issues, U.S. Government agency issues, and
      U.S. Government-sponsored entity issues.



                                                  6                                              (Continued)
                              TRIBAL AND OTHER TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2010 and 2009



(2)   Summary of Significant Accounting Policies
      (a)   Basis of Accounting
            OST uses the cash basis of accounting for the Tribal and Other Trust Funds, which is a
            comprehensive basis of accounting other than generally accepted accounting principles. The cash
            basis of accounting differs from generally accepted accounting principles in that receivables and
            payables are not accrued and premiums and discounts on investments are not amortized or accreted.
            Receipts are recorded when received and disbursements are recorded when issued. Investments are
            stated at historical cost. Interest received on invested funds reported in the statements of changes in
            trust fund balances reflects interest received during the fiscal year.

      (b)   Cash and Cash Equivalents
            Management considers all highly liquid financial instruments with maturities of three months or less
            when purchased to be cash equivalents.

      (c)   Investments
            Investment securities at September 30, 2010 and 2009 consist of U.S. Treasury issues,
            U.S. Government agency issues, and U.S. Government-sponsored entity issues. Investment securities
            are recorded at historical cost. Investment income is recognized when received.

            The Tribal and Other Trust Funds are invested in U.S. Government securities, as mandated by
            25 USC 162a.

      (d)   Fair Value Measurements
            Financial Accounting Standards Board’s Accounting Standards Codification (ASC) Topic 820, Fair
            Value Measurements and Disclosures (ASC Topic 820), establishes an authoritative definition of fair
            value, sets out a framework for measuring fair value, and requires additional disclosures about fair
            value measurements. ASC Topic 820 applies only to fair value measurements already required or
            permitted by other accounting standards and does not impose requirements for additional fair value
            measures. Since the Tribal and Other Trust Funds use the cash basis of accounting (see note 2(a)),
            ASC Topic 820 only affects note disclosures related to fair value.

      (e)   Receipts
            Receipts from various leasing activities, mineral royalties and sales of extracted minerals, timber and
            other forest products, fees and fines, and the granting of easements are generated from a variety of
            nonfinancial assets that are held in trust by the U.S. Government and managed by BIA and other
            Departmental bureaus and offices on behalf of tribes. Receipts on hand at the regional and agency
            offices, and/or in-transit at September 30, 2010 and 2009, if any, awaiting deposit to the
            U.S. Treasury, are not included in the accompanying financial statements.

            Receipts also include payments from the U.S. Government for judgment awards and the settlement
            of claims.

                                                        7                                              (Continued)
                              TRIBAL AND OTHER TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2010 and 2009



      (f)   Disbursements
            Payments disbursed from the Tribal and Other Trust Funds consist of accumulations of funds from
            various income-producing activities such as leasing, royalty receipts, minerals extraction, timber and
            other forest product sales, judgment awards, settlement of claims, and investment income. Under
            certain conditions, tribes disburse or authorize disbursement of per capita payments to their enrolled
            members.

            Public Law 103-412 specifically allows for the voluntary withdrawal of judgment awards and
            settlement of claims funds from the Tribal and Other Trust Funds. Except where prohibited by
            statute, an Indian tribe may submit a plan to withdraw some or all funds held in trust for the tribe in
            accordance with 25 CFR 1200.

      (g)   Use of Estimates
            The preparation of the financial statements requires management to make estimates and assumptions
            that affect the reported amounts of assets at the date of the financial statements and the reported
            amounts of increases and decreases in trust fund balances during the reporting period. Actual results
            could differ from those estimates.

      (h)   Subsequent Events
            Subsequent events are evaluated by management through the date that the financial statements are
            available to be issued, which is November 8, 2010.

(3)   Cash and Cash Equivalents
      Cash equivalents of approximately $523 million and $375 million at September 30, 2010 and 2009,
      respectively, consist of overnight investments with the U.S. Treasury.




                                                        8                                              (Continued)
                               TRIBAL AND OTHER TRUST FUNDS
                     MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                    OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                         Notes to Financial Statements
                                         September 30, 2010 and 2009



(4)   Investments
      The historical cost, gross unrealized holding gains, gross unrealized holding losses, and fair value of
      investment securities by major class of security at September 30 were as follows (amounts exclude
      investments in U.S. Treasury overnight securities discussed in note 3):
                                                                                      Gross
                                                                   Gross            unrealized
                                                   Historical    unrealized          holding
                                                      cost      holding gains         losses       Fair value
                                                                         (In thousands)

      At September 30, 2010:
         U.S. Treasury and agency
           securities                          $    2,128,385         86,763            (1,252)      2,213,896
         U.S. Government entity
           issued mortgage-backed
           securities                                 445,934         29,537               (11)       475,460
                                               $    2,574,319        116,300            (1,263)      2,689,356

      At September 30, 2009:
         U.S. Treasury and agency
           securities                          $    2,273,851         63,139            (5,015)      2,331,975
         U.S. Government entity issued
           mortgage-backed securities                 445,148         23,318              (892)       467,574
                                               $    2,718,999         86,457            (5,907)      2,799,549


      The investments above held by the Tribal and Other Trust Funds at September 30, 2010 and 2009 consist
      of fixed income securities, some of which are mortgaged-backed debt securities, issued by the
      U.S. Treasury, U.S. Government agencies, or U.S. Government-sponsored entities. All of these securities
      are either explicitly or implicitly backed by the U.S. Government. Given the backing by the
      U.S. Government, current market conditions have not had a significant adverse impact on the fair value of
      these securities.

      Maturities of investment securities were as follows at September 30, 2010:
                                                                             Historical cost      Fair value
                                                                                       (In thousands)
      Due in one year or less                                            $        241,925            244,130   
      Due after one year through five years                                       408,873            436,207   
      Due after five years through ten years                                      369,028            391,559   
      Due after ten years                                                       1,554,493          1,617,460   
                                                                         $      2,574,319          2,689,356   


                                                        9                                           (Continued)
                              TRIBAL AND OTHER TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2010 and 2009



(5)   Fair Value Disclosure Measurements
      ASC Topic 820 defines fair value as the price that would be received from the sale of an asset or paid to
      transfer a liability (an exit price) in an orderly transaction between market participants on the measurement
      date in the principal or most advantageous market for the asset or liability. For measuring fair value,
      ASC Topic 820 establishes a hierarchy that places the highest priority on unadjusted quoted market prices
      in active markets for identical assets or liabilities (Level 1 measurements), and the lowest priority on
      unobservable inputs (Level 3 measurements). The three levels of inputs within the fair value hierarchy are
      defined as follows:

            Level 1: Quoted prices (unadjusted) for identical assets or liabilities in active markets that the Tribal
            and Other Trust Funds have the ability to access as of the measurement date.

            Level 2: Significant other observable inputs other than Level 1 prices such as quoted prices for
            similar assets or liabilities; quoted prices in markets that are not active; or other inputs that are
            observable or can be corroborated by observable market data.

            Level 3: Significant unobservable inputs that reflect the Tribal and Other Trust Funds’ own
            assumptions about the assumptions that market participants would use in pricing an asset or liability.

      In many cases, a valuation technique used to measure fair value includes inputs from multiple levels of the
      fair value hierarchy. The lowest level of significant input determines the placement of the entire fair value
      measurement in the hierarchy. All of the investment securities held by the Tribal and Other Trust Funds at
      September 30, 2010 and 2009 are valued using Level 2 inputs.

      The carrying value of cash and cash equivalents reflected in the statements of assets and trust fund
      balances approximates fair value, which is valued using Level 1 inputs. The fair value of investment
      securities disclosed in note 4 represents the best estimate of prices that the securities could be sold for in
      the open market as of September 30, 2010 and 2009. Those fair values are measured using pricing services,
      pricing models, or broker quotes. Inputs into the pricing models include the securities’ par values, interest
      rates and maturity dates. If broker quotes are used to value investment securities the fair value is estimated
      as the average of three broker quotes.

      The fair value methods described above may produce fair value disclosures that may not be indicative of
      net realizable value or reflective of future fair values. Furthermore, while management believes that the
      valuation methods used on the Tribal and Other Trust Funds are appropriate and consistent with other
      market participants, the use of different methodologies or assumptions to determine the disclosed fair value
      of investment securities could result in a different fair value measurement at the reporting date.




                                                        10                                               (Continued)
                              TRIBAL AND OTHER TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2010 and 2009



(6)   Contingencies
      Certain Indian tribes for whom OST holds assets in trust do not agree with balances recorded by OST
      and/or have requested an accounting of their trust funds, and certain of these Indian tribes have filed claims
      against the U.S. Government for failure to fulfill its fiduciary responsibilities and for other related items.
      Ninety-seven tribal trust cases, brought by sixty-six different tribes, currently are pending in various
      federal district courts and the U.S. Court of Federal Claims. The cases involve claims for trust fund and
      asset mismanagement, accounting, and other declaratory relief. A substantial number of the cases are
      stayed pending settlement negotiations or discovery. In addition, in many of these cases, the court does not
      have jurisdiction to grant monetary relief. Settlement offers have been made in a small percentage of the
      cases. Neither OST nor the Office of the Solicitor for the Department can presently determine the outcome
      of these actions nor the total amount, responsibility, and funding source of the potential liability. Any
      settlement resulting from an adverse outcome of the claims described above is not expected to be satisfied
      with trust fund balances. No amounts have been recorded in the accompanying Tribal and Other Trust
      Funds’ financial statements for potential claims from the U.S. Government.

(7)   Trust Fund Balances
      Trust fund balances are the aggregation of financial assets held in trust and represent the amounts owed to
      beneficiaries as of September 30, 2010 and 2009 for which OST has a fiduciary responsibility.

      The Tribal and Other Trust Funds contain the following trust fund balance categories for U.S. Government
      budget purposes, which are reflected as separate components in the accompanying financial statements:

      •     Held for Indian tribes – These represent funds held on behalf of Indian tribes. These funds are
            considered non-U.S. Government monies.

      •     Held by the Department of the Interior and considered to be U.S. Government funds – These
            represent funds, some of which will be transferred to the Held for Indian tribes category provided
            certain conditions are satisfied, and for others, the corpus of the fund may be nonexpendable. These
            funds are considered U.S. Government monies.

      A portion of trust fund balances represents estimated payments on production-type leases for which certain
      tribes and individual Indians hold an interest. When certain adjustments to production are identified,
      estimated payments received in excess of production are returned to the depositor or adjusted for in future
      payments.




                                                       11                                               (Continued)
                               TRIBAL AND OTHER TRUST FUNDS
                     MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                    OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                         Notes to Financial Statements
                                         September 30, 2010 and 2009



(8)   Related-Party Transactions with Other Government Organizations
      (a)   U.S. Department of the Interior Bureau of Indian Affairs
            BIA is responsible for the collection of certain monies resulting from the management and use of
            Indian trust lands and other trust resources. Upon receipt, OST records the deposit of trust funds to
            trust accounts based on the information received from BIA.

      (b)   U.S. Department of the Interior Office of Natural Resources Revenue
            For certain trust leases, ONRR is responsible for the collection of royalty payments on behalf of
            Indian tribes and individual Indians holding mineral rights. ONRR deposits the royalty payments
            with the U.S. Treasury and electronically transfers to OST the related accounting information,
            generally the next business day. The accounting information received from ONRR provides OST an
            allocation of 100% tribally owned lease royalties, enabling OST to record trust deposits directly into
            tribal accounts. For tribally/individually co-owned leases, allocation and accounting data is
            forwarded, generally twice a month, to OST via electronic interface through the Royalty Distribution
            Reporting System that is maintained by BIA. Pursuant to established procedure and appropriate
            authorization, the data is recorded by OST. ONRR and BLM both perform verification and other
            monitoring procedures of mineral assets. Oil and gas companies sometimes forward payments to
            ONRR based on estimated mineral production in order to comply with the Federal Oil and Gas
            Royalty Management Act of 1982 that requires timely distribution of royalties. These estimated
            payments may be disbursed by OST to the beneficiaries. Typically, the oil and gas companies adjust
            future payments for excess or shortfall amounts, if any, based on actual production.

      (c)   Other
            The U.S. Treasury holds cash and certain investments and in certain instances disburses for OST.

            The Department’s Office of the Solicitor serves as legal counsel for OST.




                                                      12                                              (Continued)
                              TRIBAL AND OTHER TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                         Notes to Financial Statements
                                         September 30, 2010 and 2009



(9)   Transfers of Trust Funds
      Certain per capita disbursements authorized by tribes result in transfers from the Tribal and Other Trust
      Funds to the Individual Indian Monies (IIM) Trust Funds while certain oil and gas distributions may result
      in transfers to/from the IIM Trust Funds from/to the Tribal and Other Trust Funds. Net transfers of trust
      funds from the Tribal and Other Trust Funds to the IIM Trust Funds totaled approximately $58.0 million
      and $56.7 million during the years ended September 30, 2010 and 2009, respectively. These transfers are
      reflected as disbursements in the accompanying statements of changes in trust fund balances. In addition,
      pursuant to information provided by BIA, OST historically utilized special deposit accounts maintained
      within the IIM Trust Funds for both tribal and IIM beneficiaries as suspense accounts, whereby funds are
      temporarily posted when allocation information is not provided when the funds are received. Following
      receipt of allocation information from BIA, the funds are transferred from the special deposit accounts to
      the designated tribal and/or IIM account(s). Special deposit accounts totaled approximately $24 million
      and $29 million as of September 30, 2010 and 2009, respectively. The majority of the special deposit
      account monies held in the IIM Trust Funds relate to historical balances and has not been distributed
      because the ultimate disposition of the funds has not been determined. Since the ultimate disposition is
      unknown at September 30, 2010, the portion attributable to the Tribal and Other Trust Funds is unknown.




                                                      13
       INDIVIDUAL INDIAN MONIES TRUST FUNDS
 MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                    Financial Statements

                September 30, 2010 and 2009
         (With Independent Auditors’ Report Thereon)
                                KPMG LLP
                                Suite 700
                                Two Park Square
                                6565 Americas Parkway NE
                                PO Box 3990
                                Albuquerque, NM 87190




                         Independent Auditors’ Report on Financial Statements


The Special Trustee for American Indians
U.S. Department of the Interior Office of the Special Trustee
 for American Indians; and

U.S. Department of the Interior Office of Inspector General:

We have audited the accompanying statements of assets and trust fund balances – modified cash basis of
the Individual Indian Monies Trust Funds managed by the U.S. Department of the Interior Office of the
Special Trustee for American Indians (OST) as of September 30, 2010 and 2009, and the related statements
of changes in trust fund balances – modified cash basis for the years then ended. These financial statements
are the responsibility of management of OST. Our responsibility is to express an opinion on these financial
statements based on our audits.

Except as discussed in the fourth paragraph of this report, we conducted our audits in accordance with
auditing standards generally accepted in the United States of America and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audits to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of internal control
over financial reporting of the Individual Indian Monies Trust Funds managed by OST. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

As described in note 2, these financial statements were prepared on the modified cash basis of accounting,
which is a comprehensive basis of accounting other than generally accepted accounting principles.

It was not practicable to extend our auditing procedures sufficiently to satisfy ourselves as to the fairness of
trust fund balances in the accompanying financial statements as of September 30, 2010 and 2009 due to the
effects of certain parties for whom OST holds assets in trust having filed a class action lawsuit for an
accounting of the individuals’ trust funds. Trust fund balances enter into the determination of financial
position and changes in trust fund balances.

In our opinion, except for the effects on the financial statements of such adjustments, if any, as might have
been determined to be necessary had we been able to apply adequate procedures to determine the fairness
of trust fund balances and related changes in trust fund balances, as discussed in the preceding paragraph,
the financial statements referred to in the first paragraph above present fairly, in all material respects, the
financial position of the Individual Indian Monies Trust Funds managed by OST as of September 30, 2010
and 2009, and the changes in trust fund balances for the years then ended in conformity with the basis of
accounting described in note 2.


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
In accordance with Government Auditing Standards, we have also issued our report dated November 8,
2010 on our consideration of internal control over financial reporting and on our tests of Individual Indian
Monies Trust Funds’ compliance with certain provisions of laws, regulations, and other matters of the
Individual Indian Monies Trust Funds managed by OST. The purpose of that report is to describe the scope
of our testing of internal control over financial reporting and compliance and the results of that testing, and
not to provide an opinion on the internal control over financial reporting or on compliance. That report is
an integral part of an audit performed in accordance with Government Auditing Standards and should be
read in conjunction with this report in assessing the results of our audits.




November 8, 2010




                                                  2
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                     Statements of Assets and Trust Fund Balances – Modified Cash Basis
                                         September 30, 2010 and 2009
                                                  (In thousands)


                                Assets                                       2010          2009
Cash and cash equivalents (note 3)                                     $       55,045       33,364   
Investments (note 4)                                                          412,391      420,535   
Accrued interest receivable                                                     2,983        3,210   
              Total assets                                             $      470,419      457,109   
                        Trust Fund Balances
Held for individual Indians (notes 7 and 9)                            $      470,419      457,109   


See accompanying notes to financial statements.




                                                       3
                         INDIVIDUAL INDIAN MONIES TRUST FUNDS
                   MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                  OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                     Statements of Changes in Trust Fund Balances – Modified Cash Basis
                                   Years ended September 30, 2010 and 2009
                                                     (In thousands)


                                                                             2010          2009
Increases:
   Receipts (note 9)                                                  $       336,865       334,236   
   Interest earned on invested funds                                           19,677        20,792   
   Gain on disposition of investments, net                                        211           126   
                                                                              356,753       355,154   
Decreases:
  Disbursements to and on behalf of account holders                          (343,443)     (342,234)  
              Increase in trust fund balances, net                             13,310        12,920   
Trust fund balances, beginning of year                                        457,109       444,189   
Trust fund balances, end of year (notes 7 and 9)                      $       470,419       457,109   


See accompanying notes to financial statements.




                                                          4
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2010 and 2009



(1)   Background and Description of the Trust Funds
      (a)   Overview of the Trust Funds
            Establishment and Management of the Trust Funds – The legislation that authorizes the
            Secretary of the United States Department of the Interior (Secretary) to manage the Individual Indian
            Monies Trust Funds (IIM Trust Funds) recognizes the unique trust relationship that exists between
            the Indian tribes, individual Indians, and the United States Government (U.S. Government).
            Agreements between the U.S. Government and the various Indian tribes, many of these in the form
            of treaties, recognize the sovereignty of tribes. During the course of the United States’ history and
            the U.S. Government’s evolving policies toward individual Indians and Indian tribes, the trust
            relationship has retained characteristics based upon tribal sovereignty. The United States Congress
            has designated the Secretary as the trustee delegate with responsibility for the financial and
            nonfinancial resources held in trust on behalf of American Indian tribes, individual Indians, and
            other trust funds. In carrying out the management and oversight of the Indian trust assets, the
            Secretary has a fiduciary responsibility to ensure monies are received for the use of Indian lands and
            the extraction of natural resources from Indian lands, distribute such monies collected to the
            appropriate beneficiaries, ensure that trust accounts are properly maintained and invested, and ensure
            that accurate and complete reports are provided to the trust beneficiaries in accordance with
            applicable law.

            The balances that have accumulated in the IIM Trust Funds have resulted generally from land use
            agreements, royalties on natural resource depletion, other proceeds derived directly from trust
            resources, receipt of judgment and tribal per capita distributions, settlement of claims, and
            investment income.

            The accompanying financial statements include only the financial assets held in trust by the Office of
            the Special Trustee for American Indians (OST) for trust beneficiaries and do not include: (i) the
            operating account balances of OST (e.g., Fund Balance with Treasury; Property, Plant, and
            Equipment; etc.) or (ii) other Indian trust assets, including but not limited to, Indian lands, buildings,
            or other nonfinancial assets managed by the United States Department of the Interior
            (the Department).

            The Reform Act – The American Indian Trust Fund Management Reform Act of 1994
            (Public Law 103-412) (the Reform Act) authorized the establishment of OST, which is headed by the
            Special Trustee for American Indians (Special Trustee) who reports to the Secretary. Under this
            legislation, the Special Trustee is responsible for oversight, reform, and coordination of the policies,
            procedures, systems, and practices used by various bureaus and offices of the Department, including
            but not limited to OST, the Bureau of Indian Affairs (BIA) (a component of Indian Affairs (IA)), the
            Office of Natural Resources Revenue (ONRR) (formerly, Minerals Management Service/Minerals
            Revenue Management Program), and the Bureau of Land Management (BLM), in managing Indian
            trust assets.




                                                         5                                                (Continued)
                    INDIVIDUAL INDIAN MONIES TRUST FUNDS
              MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
             OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                    Notes to Financial Statements
                                    September 30, 2010 and 2009



      Office of the Special Trustee for American Indians – Indian trust assets, including the IIM Trust
      Funds, are primarily managed under the delegated authority of OST and BIA. Management of Indian
      trust assets on behalf of the trust beneficiaries is dependent upon the processing of trust-related
      transactions within certain information systems of the Department, including but not limited to OST,
      BIA, ONRR, and other Departmental bureaus and offices. BIA and other Departmental bureaus and
      offices are responsible for managing the natural resources located within the boundaries of Indian
      reservations and trust lands as well as the processing of data regarding the ownership and leasing of
      Indian lands. The allocation of receipts and disbursements by OST to trust beneficiaries are
      significantly dependent and reliant upon the receipt of timely and accurate information derived from
      records maintained by BIA, ONRR, and other Departmental bureaus and offices (see note 8).

      Regional Offices – OST and BIA maintain staff at regional offices located throughout the United
      States.

      Agency and Field Offices – OST and BIA also maintain staff at agency and field offices located
      throughout the United States, which are generally located near the tribes and individual Indians
      served. OST and BIA personnel located at most of the agency and field offices perform various
      functions related to trust fund activities.

(b)   Description of the Trust Funds
      The IIM Trust Funds are comprised of approximately 381,000 and 384,000 accounts, held primarily
      for the benefit of individual Indian account holder beneficiaries and tribal entities, as of
      September 30, 2010 and 2009, respectively. Included within the IIM Trust Funds are certain special
      deposit accounts that are subject to legal, regulatory, budgetary, court-ordered, or other restrictions
      that may ultimately result in funds being distributed to tribal and/or other entities.

      The IIM Trust Funds are primarily funds on deposit for individual Indians with a beneficial interest
      in those funds. IIM account holders realize receipts primarily from land use agreements, royalties on
      natural resource depletion, other proceeds derived directly from trust resources, judgment and tribal
      per capita distributions, settlement of claims, and investment income.

(c)   Investment of Trust Funds
      Authorizing legislation and a substantial body of case law specify how Indian trust funds should be
      managed and which financial instruments constitute appropriate investments for Indian trust funds.
      The IIM Trust Funds are pooled and invested in U.S. Government securities, including
      U.S. Department of the Treasury (U.S. Treasury) issues, U.S. Government agency issues, and
      U.S. Government-sponsored entity issues.




                                                  6                                              (Continued)
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2010 and 2009



(2)   Summary of Significant Accounting Policies
      (a)   Basis of Accounting
            OST uses the cash basis of accounting with certain modifications for the IIM Trust Funds, which is a
            comprehensive basis of accounting other than generally accepted accounting principles. Receipts are
            recorded when received with the exception of interest earned on invested funds (including discount
            accretion and premium amortization), and disbursements are recorded when issued. Investments are
            stated at amortized cost. Accrual adjustments to reflect interest earned but not received, and to record
            any applicable accretion of discounts and amortization of premiums over the terms of the
            investments, have been recorded in the accompanying financial statements. Interest income reported
            in the statements of changes in trust fund balances reflects interest earned, net of any premium
            amortization or discount accretion recognized during the fiscal year.

      (b)   Cash and Cash Equivalents
            Management considers all highly liquid financial instruments with maturities of three months or less
            when purchased to be cash equivalents.

      (c)   Investments
            Investment securities at September 30, 2010 and 2009 consist of U.S. Treasury issues,
            U.S. Government agency issues, and U.S. Government-sponsored entity issues. IIM Trust Funds are
            pooled and invested. Investment securities are recorded at amortized cost, adjusted for the
            amortization or accretion of premiums or discounts. Premiums and discounts are amortized or
            accreted over the expected life of the related investment security as an adjustment to yield using the
            effective-interest method. Investment income is recognized when earned.

            The IIM Trust Funds are invested in U.S. Government securities, as mandated by 25 USC 162a.

      (d)   Fair Value Measurements
            Financial Accounting Standards Board’s Accounting Standards Codification (ASC) Topic 820, Fair
            Value Measurements and Disclosures (ASC Topic 820), establishes an authoritative definition of fair
            value, sets out a framework for measuring fair value, and requires additional disclosures about fair
            value measurements. ASC Topic 820 applies only to fair value measurements already required or
            permitted by other accounting standards and does not impose requirements for additional fair value
            measures. Since the IIM Trust Funds use the cash basis of accounting with certain modifications (see
            note 2(a)), ASC Topic 820 only affects note disclosures related to fair value.

      (e)   Receipts
            Receipts from various leasing activities, mineral royalties and sales of extracted minerals, timber and
            other forest products, fees and fines, and the granting of easements are generated from a variety of
            nonfinancial assets that are held in trust by the U.S. Government and managed by BIA and other
            Departmental bureaus and offices on behalf of individual Indians. Receipts on hand at the regional


                                                        7                                               (Continued)
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                         Notes to Financial Statements
                                         September 30, 2010 and 2009



            and agency offices, and/or in-transit at September 30, 2010 and 2009, if any, awaiting deposit to the
            U.S. Treasury, are not included in the accompanying financial statements.

            Receipts also include payments from the U.S. Government for judgment awards and the settlement
            of claims.

      (f)   Disbursements
            Payments disbursed from the IIM Trust Funds consist of accumulations of funds from various
            income-producing activities such as leasing, royalty receipts, mineral extraction, timber and other
            forest product sales, judgment awards, tribal per capita distributions, settlement of claims, and
            investment income.

      (g)   Use of Estimates
            The preparation of the financial statements requires management to make estimates and assumptions
            that affect the reported amounts of assets at the date of the financial statements and the reported
            amounts of increases and decreases in trust fund balances during the reporting period. Actual results
            could differ from those estimates.

      (h)   Subsequent Events
            Subsequent events are evaluated by management through the date that the financial statements are
            available to be issued, which is November 8, 2010.

(3)   Cash and Cash Equivalents
      Cash equivalents of approximately $42 million and $28 million at September 30, 2010 and 2009,
      respectively, consist of overnight investments with the U.S. Treasury.




                                                       8                                             (Continued)
                           INDIVIDUAL INDIAN MONIES TRUST FUNDS
                     MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                    OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                         Notes to Financial Statements
                                         September 30, 2010 and 2009



(4)   Investments
      The amortized cost, gross unrealized holding gains, gross unrealized holding losses, and fair value of
      investment securities by major class of security at September 30 were as follows (amounts exclude
      investments in U.S. Treasury overnight securities discussed in note 3):

                                                                   Gross              Gross
                                                   Amortized     unrealized         unrealized
                                                     cost       holding gains     holding losses       Fair value
                                                                         (In thousands)
      September 30, 2010:
        U.S. Treasury and agency
           securities                          $      237,648         13,711                 (75)         251,284
        U.S. Government entity issued
           mortgage-backed securities                 174,743         12,308                     —        187,051
                                               $      412,391         26,019                 (75)         438,335

      September 30, 2009:
        U.S. Treasury and agency
           securities                          $      224,563            6,275                   (6)      230,832
        U.S. Government entity issued
           mortgage-backed securities                 195,972         10,591                     —        206,563
                                               $      420,535         16,866                     (6)      437,395


      The investments above held by the IIM Trust Funds at September 30, 2010 and 2009 consist of fixed
      income securities, some of which are mortgaged-backed debt securities, issued by the U.S. Treasury,
      U.S. Government agencies, or U.S. Government-sponsored entities. All of these securities are either
      explicitly or implicitly backed by the U.S. Government. Given the backing by the U.S. Government,
      current market conditions have not had a significant adverse impact on the fair value of these securities.

      Maturities of investment securities were as follows at September 30, 2010:
                                                                                 Amortized
                                                                                   cost            Fair value
                                                                                        (In thousands)
      Due in one year or less                                            $              —                   —    
      Due after one year through five years                                          20,041              20,522   
      Due after five years through ten years                                         85,072              89,869   
      Due after ten years                                                           307,278             327,944   
                                                                         $          412,391             438,335   



                                                        9                                               (Continued)
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2010 and 2009



(5)   Fair Value Disclosure Measurements
      ASC Topic 820 defines fair value as the price that would be received from the sale of an asset or paid to
      transfer a liability (an exit price) in an orderly transaction between market participants on the measurement
      date in the principal or most advantageous market for the asset or liability. For measuring fair value,
      ASC Topic 820 establishes a hierarchy that places the highest priority on unadjusted quoted market prices
      in active markets for identical assets or liabilities (Level 1 measurements), and the lowest priority on
      unobservable inputs (Level 3 measurements). The three levels of inputs within the fair value hierarchy are
      defined as follows:

            Level 1: Quoted prices (unadjusted) for identical assets or liabilities in active markets that the IIM
            Trust Funds have the ability to access as of the measurement date.

            Level 2: Significant other observable inputs other than Level 1 prices such as quoted prices for
            similar assets or liabilities; quoted prices in markets that are not active; or other inputs that are
            observable or can be corroborated by observable market data.

            Level 3: Significant unobservable inputs that reflect the IIM Trust Funds’ own assumptions about the
            assumptions that market participants would use in pricing an asset or liability.

      In many cases, a valuation technique used to measure fair value includes inputs from multiple levels of the
      fair value hierarchy. The lowest level of significant input determines the placement of the entire fair value
      measurement in the hierarchy. All of the investment securities held by the IIM Trust Funds at
      September 30, 2010 and 2009 are valued using Level 2 inputs.

      The carrying value of cash and cash equivalents and accrued interest receivable reflected in the statements
      of assets and trust fund balances approximates fair value, which is valued using Level 1 inputs. The fair
      value of investment securities disclosed in note 4 represents the best estimate of prices that the securities
      could be sold for in the open market as of September 30, 2010 and 2009. Those fair values are measured
      using pricing services, pricing models, or broker quotes. Inputs into the pricing models include the
      securities’ par values, interest rates and maturity dates. If broker quotes are used to value investment
      securities the fair value is estimated as the average of three broker quotes.

      The fair value methods described above may produce fair value disclosures that may not be indicative of
      net realizable value or reflective of future fair values. Furthermore, while management believes that the
      valuation methods used on the IIM Trust Funds are appropriate and consistent with other market
      participants, the use of different methodologies or assumptions to determine the disclosed fair value of
      investment securities could result in a different fair value measurement at the reporting date.




                                                       10                                              (Continued)
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2010 and 2009



(6)   Contingencies
      Certain parties for whom OST holds funds in trust filed a class action lawsuit in 1996, seeking an
      accounting of their individual trust funds. Although plaintiffs sought $58 billion from the District Court in
      lieu of the accounting, the District Court awarded them $456 million. However, in July 2009 the Court of
      Appeals reversed and vacated that judgment. The plaintiffs may seek to have the case reviewed by the
      United States Supreme Court. On December 7, 2009, Attorney General Eric Holder and Interior Secretary
      Kenneth Salazar announced that the parties had reached a $3.4 billion settlement subject to Congressional
      approval. The current deadline for the Congressional approval of the settlement is January 7, 2011.
      Neither the settlement, nor any future judgment award, should the settlement fail to achieve Congressional
      approval, is expected to be satisfied with individual trust funds. No amounts have been recorded in the
      accompanying IIM Trust Funds’ financial statements for potential claims from the U.S. Government.

(7)   Trust Fund Balances
      Trust fund balances are the aggregation of financial assets held in trust and primarily represent the amounts
      owed to beneficiaries as of September 30, 2010 and 2009 for which OST has a fiduciary responsibility.

      The subsidiary detail of IIM account balances contains approximately 11,000 special deposit accounts with
      balances totaling approximately $24 million and $29 million as of September 30, 2010 and 2009,
      respectively. The majority of the special deposit account monies held in the IIM Trust Funds relates to
      historical balances and has not been allocated because the allocation information for the funds has not been
      provided by BIA. Since the ultimate allocation is unknown at September 30, 2010, the portion attributable
      to the IIM Trust Funds is unknown.

      The subsidiary detail of IIM account balances contains certain oil and gas holding accounts with balances
      totaling approximately $17.5 million and $7.7 million as of September 30, 2010 and 2009, respectively,
      which have not been distributed to beneficiaries. Upon receipt of the allocation and accounting data, to be
      provided by ONRR and BIA, the monies will be distributed to the proper beneficiaries’ accounts (see
      note 8).

      A portion of trust fund balances represents estimated payments on production-type leases for which certain
      individual Indians and tribes hold an interest. When certain adjustments to production are identified,
      estimated payments received in excess of production are returned to the depositor or adjusted for in future
      payments.




                                                       11                                              (Continued)
                           INDIVIDUAL INDIAN MONIES TRUST FUNDS
                     MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                    OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                         Notes to Financial Statements
                                         September 30, 2010 and 2009



(8)   Related-Party Transactions with Other Government Organizations
      (a)   U.S. Department of the Interior Bureau of Indian Affairs
            BIA is responsible for the collection of certain monies resulting from the management and use of
            Indian trust lands and other trust resources. Upon receipt, OST records the deposit of trust funds to
            trust accounts based on the information received from BIA.

      (b)   U.S. Department of the Interior Office of Natural Resources Revenue
            For certain trust leases, ONRR is responsible for the collection of royalty payments on behalf of
            Indian tribes and individual Indians holding mineral rights. ONRR deposits the royalty payments
            with the U.S. Treasury and electronically transfers to OST the related accounting information,
            generally the next business day. For tribally/individually co-owned leases and individually owned
            leases, the allocation and accounting data to distribute the monies to the proper IIM account is
            forwarded, generally twice a month, to OST via electronic interface through the Royalty Distribution
            Reporting System that is maintained by BIA. Pursuant to established procedure and appropriate
            authorization, the data is recorded by OST. ONRR and BLM both perform verification and other
            monitoring procedures of mineral assets. Oil and gas companies sometimes forward payments to
            ONRR based on estimated mineral production in order to comply with the Federal Oil and Gas
            Royalty Management Act of 1982 that requires timely distribution of royalties. These estimated
            payments may be disbursed by OST to the beneficiaries. Typically, the oil and gas companies adjust
            future payments for excess or shortfall amounts, if any, based on actual production.

      (c)   Other
            The U.S. Treasury holds cash and certain investments and in certain instances disburses for OST.

            The Department’s Office of the Solicitor serves as legal counsel for OST.

(9)   Transfers of Trust Funds
      Certain per capita disbursements authorized by tribes result in transfers from the Tribal and Other Trust
      Funds to the IIM Trust Funds while certain oil and gas distributions may result in transfers to/from the IIM
      Trust Funds from/to the Tribal and Other Trust Funds. Net transfers of trust funds to the IIM Trust Funds
      from the Tribal and Other Trust Funds totaled approximately $58.0 million and $56.7 million during the
      years ended September 30, 2010 and 2009, respectively. These transfers are reflected as receipts in the
      accompanying statements of changes in trust fund balances. In addition, pursuant to information provided
      by BIA, OST historically utilized special deposit accounts (see note 7) maintained within the IIM Trust
      Funds for both tribal and IIM beneficiaries as suspense accounts, whereby funds are temporarily posted
      when allocation information is not provided when the funds are received. Following receipt of allocation
      information from BIA, the funds are transferred from the special deposit accounts to the designated tribal
      and/or IIM account(s).




                                                       12
           TRIBAL AND OTHER TRUST FUNDS
 MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
       Independent Auditors’ Report on Internal Control over
     Financial Reporting and on Compliance and Other Matters
                       September 30, 2010
                                KPMG LLP
                                Suite 700
                                Two Park Square
                                6565 Americas Parkway NE
                                PO Box 3990
                                Albuquerque, NM 87190




                        Independent Auditors’ Report on Internal Control over
                      Financial Reporting and on Compliance and Other Matters


The Special Trustee for American Indians
U.S. Department of the Interior Office of the Special Trustee for American Indians; and

U.S. Department of the Interior Office of Inspector General:

We have audited the statements of assets and trust fund balances – cash basis of the Tribal and Other Trust
Funds as of September 30, 2010 and 2009, and the related statements of changes in trust fund balances –
cash basis for the years then ended, managed by the U.S. Department of the Interior Office of the Special
Trustee for American Indians (OST), and have issued our report thereon dated November 8, 2010. The
objective of our audit was to express an opinion on the fair presentation of the Tribal and Other Trust
Funds Financial Statements. In connection with our fiscal year 2010 audit, we also considered internal
control over financial reporting for the Tribal and Other Trust Funds managed by OST and tested
compliance with certain provisions of applicable laws and regulations that could have a direct and material
effect on the Tribal and Other Trust Funds Financial Statements.

Summary
Our audit report on the Tribal and Other Trust Funds Financial Statements was qualified because it was not
practicable to extend our auditing procedures sufficiently to satisfy ourselves as to the fairness of trust fund
balances in the Tribal and Other Trust Funds Financial Statements as of September 30, 2010 and 2009 due
to the effects of certain tribal parties for whom OST holds assets in trust disagreeing with the balances
recorded by OST, and/or having requested an accounting of their trust funds, and of which certain of these
parties have filed, or are expected to file, claims against the United States Government. Trust fund balances
enter into the determination of financial position and changes in trust fund balances.

Our audit report states that the Tribal and Other Trust Funds Financial Statements are prepared in
accordance with a basis of accounting that is a comprehensive basis of accounting other than generally
accepted accounting principles, as described in note 2 to the Tribal and Other Trust Funds Financial
Statements.

Our consideration of internal control over financial reporting was not designed to identify all deficiencies
in the internal control over financial reporting that might be deficiencies, significant deficiencies or
material weaknesses. However, we did not identify any deficiencies in internal control over financial
reporting that we consider to be significant deficiencies or material weaknesses as defined in the Internal
Control over Financial Reporting section of this report.

The results of our tests of compliance with certain provisions of laws and regulations disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards, issued by the Comptroller General of the United States.



                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
The following sections present an overview of the Tribal and Other Trust Funds Financial Statements, and
discuss our consideration of internal control over financial reporting for the Tribal and Other Trust Funds
managed by OST, our tests of compliance with certain provisions of applicable laws and regulations for the
Tribal and Other Trust Funds managed by OST, and management’s and our responsibilities.

Overview – Tribal and Other Trust Funds Financial Statements
The United States Congress has designated the Secretary of the United States Department of the Interior
(the Secretary) as the trustee delegate with responsibility for the financial and nonfinancial resources held
in trust on behalf of American Indian tribes and other trust funds. In carrying out the management and
oversight of the Indian trust assets, the Secretary has a fiduciary responsibility to ensure monies are
received for the use of Indian lands and the extraction of natural resources from Indian lands, distribute
such monies collected to the appropriate beneficiaries, ensure that trust accounts are properly maintained
and invested, and ensure that accurate and complete reports are provided to the trust beneficiaries in
accordance with applicable law.

The American Indian Trust Fund Management Reform Act of 1994 (Public Law 103-412) (the Reform
Act) authorized the establishment of OST, which is headed by the Special Trustee for American Indians
(Special Trustee) who reports to the Secretary. Under this legislation, the Special Trustee is responsible for
oversight, reform, and coordination of the policies, procedures, systems, and practices used by various
bureaus and offices of the Department of the Interior (Department), including but not limited to OST, the
Bureau of Indian Affairs (BIA) (a component of Indian Affairs (IA)), the Office of Natural Resources
Revenue (ONRR), formerly known as Minerals Management Service Minerals Revenue Management
Program, and the Bureau of Land Management (BLM), in managing Indian trust assets.

The Tribal and Other Trust Funds are dependent upon the processing of trust-related transactions within
certain information systems of the Department, including but not limited to OST, BIA, ONRR, and other
Departmental bureaus and offices. BIA and other Departmental bureaus and offices are responsible for
managing the natural resources located within the boundaries of Indian reservations and trust lands as well
as the processing of data regarding the ownership and leasing of Indian lands. The allocation and
distribution of receipts and disbursements by OST to trust beneficiaries are significantly dependent and
reliant upon the receipt of timely and accurate information derived from records maintained by BIA,
ONRR, and other Departmental bureaus and offices.

Internal Control over Financial Reporting
Our consideration of the internal control over financial reporting was for the limited purpose described in
the Responsibilities section of this report and was not designed to identify all deficiencies in the internal
control over financial reporting that might be deficiencies, significant deficiencies or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or combination
of deficiencies in internal control, that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance. A material weakness is a deficiency, or combination of
deficiencies in internal control, such that there is a reasonable possibility that a material misstatement of
the financial statements will not be prevented or detected and corrected in a timely basis.

In our fiscal year 2010 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be significant deficiencies or material weaknesses as defined above. Exhibit I
to this report presents the status of prior year significant deficiencies reported.



                                                  2
We did however note certain other matters that we have reported to OST management in a separate letter
dated November 8, 2010.

Compliance and Other Matters
The results of our tests of compliance as described in the Responsibilities section of this report disclosed
no instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards.

We did however note certain other matters that we have reported to OST management in a separate letter
dated November 8, 2010.

Responsibilities
Management’s Responsibilities
The Reform Act requires that the Secretary shall cause to be conducted an annual audit on a fiscal year
basis of all funds held in trust by the U.S. Government for the benefit of an Indian tribe that are deposited
or invested pursuant to the Act of June 24, 1938 (25 U.S.C. 162a).

Management is responsible for the Tribal and Other Trust Funds Financial Statements, including:

•     Preparing the financial statements in conformity with the basis of accounting described in note 2 to
      the Tribal and Other Trust Funds Financial Statements;

•     Establishing and maintaining effective internal control; and

•     Complying with laws and regulations applicable to the Tribal and Other Trust Funds managed by
      OST.

Auditors’ Responsibilities
Our responsibility is to express an opinion on the fiscal year 2010 and 2009 Tribal and Other Trust Funds
Financial Statements based on our audit. Except as discussed in the fourth paragraph of our auditors’
report, we conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain reasonable assurance about whether the financial statements are free of
material misstatement. An audit includes consideration of internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of internal control over financial reporting of the Tribal and
Other Trust Funds managed by OST. Accordingly, we express no such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
      statements;

•     Assessing the accounting principles used and significant estimates made by management; and

•     Evaluating the overall financial statement presentation.

We believe that our audit provides a reasonable basis for our opinion.



                                                  3
In planning and performing our fiscal year 2010 audit, we considered internal control over financial
reporting for the Tribal and Other Trust Funds managed by OST by obtaining an understanding of the
internal controls, determining whether internal controls had been placed in operation, assessing control
risk, and performing tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the financial statements. We limited our internal control testing to those controls
necessary to achieve the objectives described in Government Auditing Standards. We did not test all
internal controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982. The objective of our audit was not to provide an opinion on internal control over
financial reporting for the Tribal and Other Trust Funds managed by OST. Accordingly, we do not express
an opinion on the effectiveness of the Tribal and Other Trust Funds’ internal control over financial
reporting.

As part of obtaining reasonable assurance about whether the fiscal year 2010 Tribal and Other Trust Funds
Financial Statements are free of material misstatement, we tested compliance with certain provisions of
laws and regulations for the Tribal and Other Trust Funds managed by OST, noncompliance with which
could have a direct and material effect on the determination of financial statement amounts. We limited our
tests of compliance to the provisions described in the preceding sentence, and we did not test compliance
with all laws and regulations applicable to the Tribal and Other Trust Funds managed by OST. However,
providing an opinion on compliance with laws and regulations was not an objective of our audit, and
accordingly, we do not express such an opinion.

                                            * * * * * * *

This report is intended solely for the information and use of the Department’s management, the
U.S. Department of the Interior Office of Inspector General, Office of Management and Budget, the
U.S. Government Accountability Office, and the U.S. Congress, and is not intended to be and should not
be used by anyone other than these specified parties.




November 8, 2010




                                                  4
                                                                                                Exhibit I
                          TRIBAL AND OTHER TRUST FUNDS
                MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
               OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                  Status of Prior Year Findings, Reported as of September 30, 2009
                                         September 30, 2010



   Reference                 Condition                              Current Year Status

OST-2009-A       Unresolved Financial Reporting        Removed. Remaining unresolved financial
                 Matters from Prior Periods            reporting matters from prior periods are no
                                                       longer considered significant deficiencies.




                                                5
       INDIVIDUAL INDIAN MONIES TRUST FUNDS
 MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
       Independent Auditors’ Report on Internal Control over
     Financial Reporting and on Compliance and Other Matters
                       September 30, 2010
                                KPMG LLP
                                Suite 700
                                Two Park Square
                                6565 Americas Parkway NE
                                PO Box 3990
                                Albuquerque, NM 87190




                        Independent Auditors’ Report on Internal Control over
                      Financial Reporting and on Compliance and Other Matters


The Special Trustee for American Indians
U.S. Department of the Interior Office of the Special Trustee for American Indians; and

U.S. Department of the Interior Office of Inspector General:

We have audited the statements of assets and trust fund balances – modified cash basis of the Individual
Indian Monies Trust Funds (IIM Trust Funds) as of September 30, 2010 and 2009, and the related
statements of changes in trust fund balances – modified cash basis for the years then ended, managed by
the U.S. Department of the Interior Office of the Special Trustee for American Indians (OST), and have
issued our report thereon dated November 8, 2010. The objective of our audit was to express an opinion on
the fair presentation of the IIM Trust Funds Financial Statements. In connection with our fiscal year 2010
audit, we also considered internal control over financial reporting for the IIM Trust Funds managed by
OST and tested compliance with certain provisions of applicable laws and regulations that could have a
direct and material effect on the IIM Trust Funds Financial Statements.

Summary
Our audit report on the IIM Trust Funds Financial Statements was qualified because it was not practicable
to extend our auditing procedures sufficiently to satisfy ourselves as to the fairness of trust fund balances in
the IIM Trust Funds Financial Statements as of September 30, 2010 and 2009 due to the effects of certain
parties for whom OST holds financial assets in trust having filed a class action lawsuit for an accounting of
the individuals’ trust funds. Trust fund balances enter into the determination of financial position and
changes in trust fund balances.

Our audit report states that the IIM Trust Funds Financial Statements are prepared in accordance with a
basis of accounting that is a comprehensive basis of accounting other than generally accepted accounting
principles, as described in note 2 to the IIM Trust Funds Financial Statements.

Our consideration of internal control over financial reporting was not designed to identify all deficiencies
in the internal control over financial reporting that might be deficiencies, significant deficiencies or
material weaknesses. However, we did not identify any deficiencies in internal control over financial
reporting that we consider to be significant deficiencies or material weaknesses as defined in the Internal
Control over Financial Reporting section of this report.

The results of our tests of compliance with certain provisions of laws and regulations disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards, issued by the Comptroller General of the United States.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
The following sections present an overview of the IIM Trust Funds Financial Statements, and discuss our
consideration of internal control over financial reporting for the IIM Trust Funds managed by OST, our
tests of compliance with certain provisions of applicable laws and regulations for the IIM Trust Funds
managed by OST, and management’s and our responsibilities.

Overview – IIM Trust Funds Financial Statements
The United States Congress has designated the Secretary of the United States Department of the Interior
(the Secretary) as the trustee delegate with responsibility for the financial and nonfinancial resources held
in trust on behalf of individual Indians. In carrying out the management and oversight of the Indian trust
assets, the Secretary has a fiduciary responsibility to ensure monies are received for the use of Indian lands
and the extraction of natural resources from Indian lands, distribute such monies collected to the
appropriate beneficiaries, ensure that trust accounts are properly maintained and invested, and ensure that
accurate and complete reports are provided to the trust beneficiaries in accordance with applicable law.

The American Indian Trust Fund Management Reform Act of 1994 (Public Law 103-412) (the Reform
Act) authorized the establishment of OST, which is headed by the Special Trustee for American Indians
(Special Trustee) who reports to the Secretary. Under this legislation, the Special Trustee is responsible for
oversight, reform, and coordination of the policies, procedures, systems, and practices used by various
bureaus and offices of the Department of the Interior (Department), including but not limited to OST, the
Bureau of Indian Affairs (BIA) (a component of Indian Affairs (IA)), the Office of Natural Resources
Revenue (ONRR), formerly known as Minerals Management Service Minerals Revenue Management
Program, and the Bureau of Land Management (BLM), in managing Indian trust assets.

The IIM Trust Funds are dependent upon the processing of trust-related transactions within certain
information systems of the Department, including but not limited to OST, BIA, ONRR, and other
Departmental bureaus and offices. BIA and other Departmental bureaus and offices are responsible for
managing the natural resources located within the boundaries of Indian reservations and trust lands as well
as the processing of data regarding the ownership and leasing of Indian lands. The allocation and
distribution of receipts and disbursements by OST to trust beneficiaries are significantly dependent and
reliant upon the receipt of timely and accurate information derived from records maintained by BIA,
ONRR, and other Departmental bureaus and offices.

Internal Control over Financial Reporting
Our consideration of the internal control over financial reporting was for the limited purpose described in
the Responsibilities section of this report and was not designed to identify all deficiencies in the internal
control over financial reporting that might be deficiencies, significant deficiencies or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or combination
of deficiencies in internal control, that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance. A material weakness is a deficiency, or combination of
deficiencies in internal control, such that there is a reasonable possibility that a material misstatement of
the financial statements will not be prevented or detected and corrected on a timely basis.

In our fiscal year 2010 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be significant deficiencies or material weaknesses as defined above. Exhibit I
to this report presents the status of prior year significant deficiencies reported.



                                                  2
We did however note certain other matters that we have reported to OST management in a separate letter
dated November 8, 2010.

Compliance and Other Matters
The results of our tests of compliance as described in the Responsibilities section of this report disclosed
no instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards.

We did however note certain other matters that we have reported to OST management in a separate letter
dated November 8, 2010.

Responsibilities
Management’s Responsibilities
The Reform Act requires that the Secretary shall cause to be conducted an annual audit on a fiscal year
basis of all funds held in trust by the U.S. Government for the benefit of an individual Indian that are
deposited or invested pursuant to the Act of June 24, 1938 (25 U.S.C. 162a).

Management is responsible for the IIM Trust Funds Financial Statements, including:

•     Preparing the financial statements in conformity with the basis of accounting described in note 2 to
      the IIM Trust Funds Financial Statements;

•     Establishing and maintaining effective internal control; and

•     Complying with laws and regulations applicable to the IIM Trust Funds managed by OST.

Auditors’ Responsibilities
Our responsibility is to express an opinion on the fiscal year 2010 and 2009 IIM Trust Funds Financial
Statements based on our audit. Except as discussed in the fourth paragraph of our auditors’ report, we
conducted our audit in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of internal control over financial reporting of the IIM Trust Funds managed
by OST. Accordingly, we express no such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
      statements;

•     Assessing the accounting principles used and significant estimates made by management; and

•     Evaluating the overall financial statement presentation.

We believe that our audit provides a reasonable basis for our opinion.



                                                 3
In planning and performing our fiscal year 2010 audit, we considered internal control over financial
reporting for the IIM Trust Funds managed by OST by obtaining an understanding of the internal controls,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the financial statements. We limited our internal control testing to those controls necessary to achieve
the objectives described in Government Auditing Standards. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The
objective of our audit was not to provide an opinion on internal control over financial reporting for the IIM
Trust Funds managed by OST. Accordingly, we do not express an opinion on the effectiveness of the IIM
Trust Funds’ internal control over financial reporting.

As part of obtaining reasonable assurance about whether the fiscal year 2010 IIM Trust Funds Financial
Statements are free of material misstatement, we tested compliance with certain provisions of laws and
regulations for the IIM Trust Funds managed by OST, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts. We limited our tests of compliance to
the provisions described in the preceding sentence, and we did not test compliance with all laws and
regulations applicable to the IIM Trust Funds managed by OST. However, providing an opinion on
compliance with laws and regulations was not an objective of our audit, and accordingly, we do not
express such an opinion.

                                            * * * * * * *

This report is intended solely for the information and use of the Department’s management, the
U.S. Department of the Interior Office of Inspector General, Office of Management and Budget, the
U.S. Government Accountability Office, and the U.S. Congress, and is not intended to be and should not
be used by anyone other than these specified parties.




November 8, 2010




                                                  4
                                                                                                Exhibit I
                      INDIVIDUAL INDIAN MONIES TRUST FUNDS
                MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
               OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                  Status of Prior Year Findings, Reported as of September 30, 2009
                                         September 30, 2010



   Reference                 Condition                              Current Year Status

OST-2009-A       Unresolved Financial Reporting        Removed. Remaining unresolved financial
                 Matters from Prior Periods            reporting matters from prior periods are no
                                                       longer considered significant deficiencies.




                                                5
